The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
                                        F. Scott Kieff
OFFICE OF INSPECTOR GENERAL




         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                     WASHINGTON, DC 20436



December 24, 2013                                                   IG-LL-025

Chairman Williamson:

This memorandum transmits the Management Letter Report (OIG-ML-14-08) from the audit of
the Commission’s financial statements for fiscal year 2013. We contracted with the independent
certified public accounting firm, Castro & Company LLC, to conduct the audit. The
management letter discusses matters involving internal control that the auditors identified during
the audit but were not required to be included in the audit reports.

Due to the improvements the Commission has made to address the matters identified in the
report, there were no recommendations issued for corrective action. The Management Letter
Report encourages the Commission to maintain its monitoring and oversight activities to
improve the effectiveness and efficiency of its processes and procedures.

Thank you for the courtesies extended to the both Castro & Company and my staff during this
audit.

Sincerely,




Philip M. Heneghan
Inspector General
U.S. INTERNATIONAL TRADE COMMISSION




  Fiscal Year 2013 Financial Statement Audit

         Management Letter Report
                                                                                   1711 King Street
                                                                                   Suite C
                                                                                   Alexandria, VA 22314
                                                                                   Phone: 703.229.4440
                                                                                   Fax: 703.859.7603
                                                                                   www.castroco.com

December 09, 2013

Inspector General
U.S. International Trade Commission


We have audited the financial statements of the U.S. International Trade Commission (ITC) as of
and for the year ended September 30, 2013, and have issued our report thereon dated December 9,
2013.

We noted certain matters involving internal control and other operational matters that are
summarized in this letter. These comments and recommendations, all of which have been discussed
with the appropriate members of management, are intended to improve internal control or result in
other operating efficiencies.

We would be pleased to discuss these comments and recommendations with you at any time. We
would also like to express our appreciation to you and all other ITC personnel who assisted us in
completing our work.

This report is intended solely for the information and use of ITC management, the Office of
Inspector General, and others within the organization and is not intended to be, and should not be,
used by anyone other than these specified parties.


Sincerely,




Castro & Company, LLC




                                                1
1. Improvements in the Internal Controls over the Undelivered Orders (i.e., Open
   Obligations) and Accounts Payable Process are Needed

During our testing to assess management controls and compliance with applicable laws, regulations,
and procedures relative to undelivered orders and accounts payable significant improvements were
noted over the prior years. However, the following conditions were noted:
    x Even though the Period of Performance had expired contract close-out procedures to properly
       reconcile contract files and initiate the de-obligation of funds was not done on a timely basis.
    x Accruals were incorrectly calculated as a result of: Contracting Officer Representatives
       (CORs) not including amounts for services received but not recognized in the General
       Ledger (GL); COR’s incorrectly including in the accrual calculation invoices received and
       recognized in the GL; CORs using rates not in agreement with the associated contract; COR
       not including retainer of invoice for services received but to be paid at the end of the contract
       per the contract terms.

ITC did not follow its written policies and procedures for the monitoring of contract expirations,
resulting in the COR’s initiating contract-close-out procedures in order to properly de-obligate funds
as a result of our audit. In addition, accruals were not properly reviewed, causing errors in the
accruals proposed by the CORs not being detected.
GAO’s Standards for Internal Control in the Federal Government states:

       Internal control and all transactions and other significant events need to be clearly
       documented, and the documentation should be readily available for examination. The
       documentation should appear in management directives, administrative policies, or
       operating manuals and may be in paper or electronic form. All documentation and
       records should be properly managed and maintained.

Statement of Federal Financial Accounting Standards No. 1, Accounting for Selected Assets and
Liabilities states:

       Accounts payable are amounts owed by a Federal entity for goods and services
       received from, progress in contract performance made by, and rents due to other
       entities…When an entity accepts title to goods, whether the goods are delivered or in
       transit, the entity should recognize a liability for the unpaid amount of the goods. If
       invoices for those goods are not available when financial statements are prepared, the
       amounts owed should be estimated.

By not following written policies and procedures in place for the timely completion of contract-close
out process, ITC increases the risk that invalid obligations are not detected and de-obligated on a
timely basis which could cause the UDO balance to be overstated. Additionally, by not following
written policies and procedures in place for the accurate review of UDOs and AP, specifically, the
proper review of accruals as a result of the open obligations review process, ITC increases the risk
for UDO and AP account balances to be over or understated and incorrectly reported.

ITC management should continue to mature the implementation of recommendations made in the
past to continue improving its accrual and UDO contract close processes.


                                                   2
2. Improvements in the Internal Controls over the Review and Approval of Reconciliations
   are Needed

During our testing to assess management controls and compliance with applicable laws, regulations,
and procedures relative to the account reconciliation process, the following condition was noted:

   x   Certain reconciliations between the subsidiary listings and the general ledger on key financial
       accounts did not contain signatures evidencing the review and approval of the reconciliations
       as required by ITC’s Financial Management Manual.

ITC’s Financial Management Manual requires reconciliations for key financial accounts to be
performed and evidenced through email transmission or signature, however, ITC did not consistently
maintain on file documentation of the review and approval for all reconciliations.

GAO’s Standards for Internal Control in the Federal Government states:

       Internal control should generally be designed to assure that ongoing monitoring occurs in the
       course of normal operations. It is performed continually and is ingrained in the agency’s
       operations. It includes regular management and supervisory activities, comparisons,
       reconciliations, and other actions people take in performing their duties. Internal control and
       all transactions and other significant events need to be clearly documented, and the
       documentation should be readily available for examination.

       Control activities are an integral part of an entity’s planning, implementing, reviewing, and
       accountability for stewardship of government resources and achieving effective
       results…They include a wide range of diverse activities such as approvals, authorizations,
       verifications, reconciliations, performance reviews, maintenance of security, and the creation
       and maintenance of related records which provide evidence of execution of the activities as
       well as appropriate documentation.

A major objective of internal control is to ensure the integrity of the underlying accounting data
supporting the financial statements. A key control is performing reconciliations of significant
account balances. An adequate reconciliation contains evidence of management’s review and
approval which provides assurance that transactions have been properly processed and recorded in
the accounting records. Another key control is performing detailed management review and approval
of transactions recorded in the financial system, and of financial reports.

ITC management should continue to mature the implementation of recommendations made in the
past to continue improving its reconciliation review and approval process.




                                                  3
Status of Prior Year Management Letter Comments

The FY 2012 Management Letter Report identified the following control deficiencies:


                  Finding
           Identified in FY 2012                      Status in FY 2013
         Cash Disbursements           Resolved
         Payroll                      Resolved
         Parking Subsidy Program      Resolved




                                                 4
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
